                                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                                   The Ins pector General
                                                                   Washington, D.C. 20230



May 9, 2012


The Honorable Jeanne Shaheen
United States Senate
520 Hart Senate Office Building
Washington, DC 20510


Dear Senator Shaheen:

This letter is in response to your April 27, 2012, inquiry regarding the work done by our office
concerning the Department of Commerce's conference spending. We recognize the need for close and
ongoing scrutiny of the Department's conference spending to prevent wasteful use of taxpayer money.
To that end, the Office of Inspector General (OIG) is currently conducting an audit of the Department's
conference spending and engaging in other active oversight of conference spending, to include
requesting information from the National Oceanic and Atmospheric Administration regarding its recent
solicitation of a magician for an upcoming conference.

In the Fiscal Year 2012 Commerce, Justice, Science, and Related Agencies Appropriations Act, the
Department was directed to submit reports to OIG regarding the costs and co ntracting procedures for
conferences with costs exceeding $20,000. On March 16, 2012, OIG received the Department' s first­
quarter conference spending report. The report shows that the Department sponsored or cosponsored
24large conferences and spent $1.75 million during that time period. OIG has not yet received the
second-quarter conference spending report, but my office will review the report once it is delivered to
identify questionable activities.

On April 3, 2012, OIG announced an audit to determine whether the Department has established
controls and provided guidance to bureaus for reporting conference data (see attached). As part of the
audit, we plan to review the Department's validation process to ensure the integrity of reported
spending. We plan to complete the audit this year and will provide a copy of the final report to your
office.

We will continue monitoring the Department's conference spending. Should we identify any
questionable activities, we will work with the Department to ensure that corrective actions are taken
and Congress is informed in a timely manner.
Thank you for your interest in our work. If you have any questions or require additional information, you
or your staff may contact me at (202) 482-4661 or Ann Eilers, Principal Assistant Inspector General for
Audit and Evaluation, at (202) 482-2754.

Sincerely,


1'~~~
Todd J. Zinser

Enclosure
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Office of Inspector General
                                                      Washington, D.C. 20230




April 3, 20 12

MEMORANDUM FOR:               Scott B. Quehl
                              Chief Financial Officer and Assistant Secretary for Administration
                                                              I) rZf
FROM: 	                       Ann C. Eilers   ,          .    l. ~
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                    Review of Commerce Controls over Quarterly Conference
                              Reporting


We are initiating a review of the Department of Commerce's controls over its quarterly
conference reporting. In fiscal year 20 12, the Department received an appropriations provision
requiring it to submit quarterly reports to the inspector general on the costs and contracting
procedures relating to conferences held by the Department where the cost to the government
exceeded $20,000. The review's objectives are to determine whether the Department has
established controls and provided guidance to bureaus for reporting quarterly conference data.

As part of this review, the auditors will assess the policies and procedures implemented by the
Department for the oversight of conference procurement and management. The review will
also examine the Department's requirements for reporting quarterly conference data and its
communication of the procedures to the bureaus and other relevant departmental offices.
Finally, the review will evaluate the bureaus' reporting and the Department's report validation
process.

We will contact your audit liaison to schedule an entrance conference. In the meantime, if you
have any questions about this review, please contact me at (202) 482-7859 or Patty
McBarnette, Director, Financial Statement Audits, at (202) 482-3391.

cc:    Lisa Casias, Deputy Chief Financial Officer and Director for Financial Management
